U.S. Department of                 The Inspector General        Office of Inspector General
Transportation                                                  Washington, DC 20590

Office of the Secretary
of Transportation

August 17,2010


The Honorable Darrell Issa
Ranking Member
Committee on Oversight and Government Reform
U. S. House of Representatives
2157 Rayburn House Office Building
Washington, D.C. 20515-6143

Dear Ranking Member Issa:

On June 24, 2010, you asked the Recovery Accountability and Transparency
Board to look into Federal agencies' policies and guidance on the use of American
Recovery and Reinvestment Act (ARRA) signage.               This letter provides
information for the Department of Transportation (DOT). Specifically, the letter
describes

•   Operating Administration's (OA) current requirements for ARRA recipients to
    post signs, logos, or emblems intended to publicly identify the source or
    expenditure of ARRA funds, and the statutory authority to do so;

•   any past or pending changes to these requirements and the reasons for doing
    so; and

•   OA guidance on the posting of ARRA signs, logos, or emblems intended to
    publicly identify the source or expenditure of ARRA funds.


OAs Do Not Currently Require ARRA Recipients to Post Signage

OAs do not currently require ARRA recipients to post signage to publicly identify
the source or expenditure of ARRA funds, but they encourage recipients to do so
(see table 1).
                                                                                                  2

Table 1: OA Statements on ARRA Signage, as of August 9,2010
Federal Aviation Administration (FAA)
http://www.faa.gov/airports/aip/medialFY09 aip arra guidance. pdf
FAA strongly encourages airport recipients of grants funded by ARRA to post signs notifying the
public that the airport project was funded, fully or in part, by ARRA funds. FAA includes as one of
the special grant conditions for airport improvement projects the following language: Airport
Signs: The airport grant recipient of ARRA funds hereby agrees that it will strongly encourage the
prime contractor of an airport project funded with ARRA funds to post signs identifying the project
as one funded in whole or in part by ARRA funds. Airport signs should be visible to the public using
the airport, such as on the main entrance road to the Airport or Terminal. The airport signs should,
at a minimum, prominently display the two recovery logos (Recovery.gov and USDOT TIGER). The
signs may also contain text explaining that the project is funded, fully or in part, with ARRA funds.
The signs should be solely used to publicize ARRA funding of an airport project.
Federal Highway Administration (FHWA)
http://www.fhwa.dot.gov/economicrecovery/gandas.htm
FHWA strongly encourages agencies to use the economic recovery signs on all projects funded by
ARRA.
Federal Railroad Administration
For high-speed rail, grantees are strongly encouraged to post a sign at all fixed project locations at
the most publicly accessible location and a plaque in all purchased or rehabilitated rail cars
announcing that the project or equipment was funded by the U.S. Department of Transportation,
Federal Railroad Administration, with funds provided through the American Recovery and
Reinvestment Act. The configuration of the signs or plaques will be consistent with guidance issued
by the Office of Management and Budget (OMB) and/or DOT and approved by FRA.
Federal Transit Administration (FTA) http://www.fta.dot.gov/index94409909.html
FTA strongly encourages grantees to use the two logos designed to identify all Recovery Act
projects approved and funded by DOT. The first logo represents Recovery.Gov and for purposes
of transparency and accountability will be used government wide to show the public where their tax
dollars are working to promote economic recovery and reinvestment in the nation's infrastructure.
The second logo is specific to the US DOT and includes the word TIGER, which stands for
Transportation Investment Generating Economic Recovery.
Maritime Administration (MARAD)
MARAD guidance cites the President's wish to have all projects funded by ARRA to bear a
recovery emblem: "The President of the United States has said that he wants all projects funded by
the American Recovery and Reinvestment Act (ARRA) to bear a recovery emblem to make it easier
for [the] all Americans to see which projects are being funded by the ARRA." However, there is no
requirement for signage in MARAD grant agreements.



According to DOT officials, posting signs is consistent with ARRA's and OMB's
transparency and accountability requirements as it allows the public to
immediately identify how Recovery Act funds are being used-especially for
those without the time, means, or technical acumen to find this information on the
Recovery Act website. As an example, DOT noted that OMB initial government-
wide guidance on implementing ARRA 1 established requirements intended to

1 Initial Impleme~ting Guidance for the American Recovery and Reinvest~ent Act of 2009,
February 18, 2009;


CC-2010-065
                                                                                     3

meet crucial accountability objectives, including that "the uses of all funds are
transparent to the public, and the public benefits of these funds are reported
clearly, accurately, and in a timely manner." DOT cited that OMB issued the
guidance under the authority of 31 U.S.C. 1111; Reorganization Plan No.2 of
1970; Executive Order 11541; the Chief Financial Officers Act of 1990 (P.L. 101-
576); the Office of Federal Procurement Policy Act (41 U.S.c. Chap. 7); and the
Federal Funding Accountability and Transparency Act of 2006 (P.L. 109-282), for
carrying out programs and activities enacted in the Recovery Act.

FT A and FRA Have Relaxed Their Original ARRA Signage
Requirements

FTA's initial web posting of its ARRA signage policy on April 7,2009, stated that
funding recipients were required to post ARRA signs. Specifically, the posting
stated that the grant agreement for each FTA ARRA grant include a special
condition that "the recipient agrees to identify projects supported by FTA by
attaching the appropriate emblems as the Federal Government may require." DOT
officials told us that FT A updated its policy on August 14, 2009, to encourage,
rather than require, recipients to post signs in response to the Department's effort
to ensure consistency across OAs. According to FTA, 244 of the 946 grants that
were signed prior to the update might have required a sign. However, FTA
pointed out that the actual number of signs erected could have been more or less
than 244 because some of the grants' start date might have been after the update,
and others may have put up one or more signs per grant.

Originally, FRA required High-Speed Intercity Passenger Rail (HSIPR) grant
agreements to include the following language: "The grantee shall post a sign at all
fixed project locations at the most publicly accessible location and a plaque in all
purchased or rehabilitated rail cars announcing that the project or equipment was
funded by the U.S. Department of Transportation, Federal Railroad Administration
with funds provided through the American Recovery and Reinvestment Act."z
According to officials, this language was adopted from the FRA March 19, 2009,
grant agreement with Amtrak, and that the agreement language was based on
ARRA guidance available at that time. 3 FRA decided to remove this requirement
on July 15, 2010, and according to officials is amending the six HSIPR


http://www.recovery.gov/AboutlDocuments/lnitiaIRecoveryActlmplementingGuidance Fe
b18.pdf
2 "Notice of Funding AvailabilitylInterim Program Guidance for the High-Speed Intercity
Passenger Rail Program," June 23, 2009.
http://www.fra.dot.gov/downloads/RRDev/fr hsipr guidance.pdf             .
3 ARRA mandated that FRA award the Amtrak ARRA grant within 30 days of ARRA's
enactment.


cc- 2010-065
                                                                                                    4

agreements that have already been signed. 4 According to FRA officials, amending
the Amtrak grant agreement would be moot because the agreement was signed
almost 18 months ago, and all the funds have been obligated.


Most OAs Provide Detailed Guidance for ARRA Signage

Each OA provided guidance on the design and placement of ARRA signage (see
table 2).

Table 2: Summary of OA Guidance for ARRA Signage and Source Links, as of
August 9,2010
Federal Aviation Administration
Facilities and Equipment
•  All economic recovery sign design layout and color should be similar to the sign design
   attached with this guidance. At a minimum, the RECOVERY.GOV logo and the USDOT
   TIGER logo must appear on the sign accompanied by the words, "Project Funded By." These
   signs enhance transparency for the public at the local community level where the work is being
   conducted and providing jobs and revenue.
•  Sign placement on Port Authority grounds shall be in compliance with established requirements
   for that facility as established by the Port Authority.
•  With respect to placement, traffic control signs, regulatory, warning, and guide signs have a
   higher priority than the economic recovery signs.
•   In no case shall these signs be placed such that they obscure road users' view of other traffic
   control devices.
•   Economic recovery signs should be placed where they can be easily identified with the
   corresponding projects.
•   If the placement of the economic recovery signs conflicts with newly installed higher priority
   signs, or traffic signals, or temporary traffic control devices, or other priority devices, the
   economic recovery sign should be relocated.
•   Due to public safety concerns, economic recovery signs should not be allowed at the following
    locations:
    o On the front, back, adjacent to or around any traffic control device, including traffic signs,
         signals, changeable message signs, traffic control device posts or structures, or bridge
         piers.
    o At key decision pOints where a driver's attention is more appropriately focused on traffic
         control devices, roadway geometry, or traffic conditions. These locations include, but are
         not limited to exit and entrance ramps, intersections controlled by traffic Signals or by stop
         or yield signs, highway-rail grade crossings, and areas of limited sight distance.
Airport Improvement Program
http://www.faa.gov/airports/aip/media/FY09 aip arra guidance.pdf
•   Airport signs should be visible to the public using the airport, such as on the main entrance
    road to the Airport or Terminal.
•   Grantees are strongly urged to, at a minimum, prominently display the two recovery logos
    (Recovery.gov and USDOT TIGER). Sample logos may be viewed, obtained, and/or

4FRA announced on January 28, 2010, that 62 HSIPR applic,ations from 23 states and the District
of Columbia were selected to receive ARRA funding.



CC-2010-065
                                                                                                         5

        downloaded at the Federal Transit Administration site as follows:
        http://www.fta.dot.gov/index94409482.html. The signs may also contain text explaining that
        the project is funded, fully or in part, with ARRA funds.
•       The signs should be solely used to publicize ARRA funding of an airport project.
•       The reasonable costs associated with display of an airport sign are eligible for reimbursement
        from ARRA funds awarded for the project.
Federal Highway Administration
hnp:llwww.fhwa.dot.gov/economicrecovery/arrasignguidance.htm
•       All economic recovery sign design layout and color should be similar to the sign design
        attached with this guidance.
•       With respect to placement, traffic control signs, regulatory, warning, and guide signs have a
        higher priority than the economic recovery signs.
•       In no case shall these signs be placed such that they obscure road users' view of other traffic
        control devices.
•       Economic recovery signs should be placed where they can be easily identified with the
        corresponding projects.
•       If the placement of economic recovery signs conflicts with newly installed higher priority signs,
        or traffic signals, or temporary traffic control devices, or other priority devices, the economic
        recovery signs should be relocated.
•       Due to public safety concerns, economic recovery signs should not be allowed at the following
        locations:
        o On the front, back, adjacent to or around any traffic control device, including traffic signs,
             signals, changeable message signs, traffic control device posts or structures, or bridge
             piers.
        o At key decision points where a driver's attention is more appropriately focused on traffic
             control devices, roadway geometry, or traffic conditions. These locations include, but are
             not limited to exit and entrance ramps, intersections controlled by traffic signals or by stop
             or yield signs, highway-rail grade crossings, and areas of limited sight distance.
Federal Railroad Administration
    •   ARRA Project Signs should be stand-alone signs, with the sole purpose of identifying the
        project as being funded (in whole or in part) by ARRA.
    •   Grantees may elect to have a secondary project sign which identifies other project partners
        (e.g. State, city, county, corporate partners (including architectural, engineering, and
        construction firms), etc.), but such secondary project signs should be smaller and less
        prominent than ARRA Project Sign. An ARRA Project Sign must be located adjacent to each
        placement of such a secondary project sign.
•       ARRA Project Signs should be designed to maximize visibility of the Recovery.Gov and
        USDOT TIGER logos and minimize any accompanying text.
•       Minimal descriptive text may be included on ARRA Project Sign, for example, ''This Project
        funded by" preceding the logos, or ''This Station Improvement...," etc. as appropriate.
•       The size of ARRA Project Sign at a particular site should be appropriate for the specific
        location and the likely audience for the sign. For example, a sign that is most likely to be seen
        by pedestrians approaching a project site (e.g. a station) may be smaller than that for a project
        that is most likely to be viewed by individuals approaching the site in a vehicle.
•       ARRA Project Signs should contain logos only for Recovery.Gov and USDOT TIGER. No other
        logos (State, city, county, corporate, etc) should appear on ARRA Project Signs.
•       The size of the Recovery.Gov logo should such so that it is roughly twice the height of the
        USDOT TIGER logo.
•       Because the TIGER logo was designed to identify USDOT ARRA projects, it is not necessary
        to display the standard DOT triskelion seal in combination with the TIGER logo.
•       For rail vehicles purchased or rehabilitated using ARRA funding, ARRA Project Sign should
        take the form of decal, no smaller than 12 inches measured diagonally. For passenger rail



CC-2010-065
                                                                                                    6

    cars, such decals should be placed so as to be visible to every passenger entering the car (e.g.
    on or adjacent to each vestibule door and/or each exterior door). For locomotives, such decals
    should be place in the lower front of the locomotive body, adjacent to any builder plate.
•   See the attached mock-up for the general format for ARRA Project Signs, including the relative
    prominence of sign elements.
•   ARRA Project Signs should be located at the project site so as to maximize their visibility to rail
    passengers and passersby approaching the site.
•   Safety concerns should be taken into consideration in the placement of signs, so as not to
    obscure traffic control signs, for example, or create a hazard.
•   The cost of producing and displaying the logos is an eligible project administration cost in FRA
    ARRA grants.
•   Grantees may use the Recovery.Gov and TIGER logos on paper documents and websites
    related to ARRA funded projects, for example bid documents and website postings of contract
    awards.
Federal Transit Administration http://www.fta.dot.gov/index94409909.html
FTA has made available high resolution images suitable for reproduction for grantees to download
to produce signs or decals to display on FTA funded ARRA projects. Given the wide variability of
transit projects, FTA does not specify a particular size or format of sign, but provides the following
guidelines:
•   Signs should be designed to maximize visibility of the logos and minimize any accompanying
    text.
•   Minimal text may be included on the sign, for example, "This Project funded by" preceding the
     logos, or "This Station Improvement..." or "This Bus ... ," etc. as appropriate, but text is not
     required.
• The Recovery.Gov logo should be larger than the TIGER logo.
•    Because the TIGER logo was deSigned to identify US DOT ARRA projects, it is not necessary
    to display the standard DOT triskelion seal in combination with the TIGER logo.
•    It is not necessary to display the standard FTA mark in combination with the TIGER logo.
•    Grantees may adapt placement of the logos and may design signs to be suitable to the
    specific project on which they are displayed, but may not alter the design and colors of the
     logos themselves.
•    Signs at construction projects, for example facilities, should be placed where they are visible to
     passersby and to customers approaching the site.
•    Revenue service vehicles may be identified by a decal and/or bumper sticker visible to the
     public and to boarding passengers.
•    FTA understands that the useful life of a bumper sticker or decal may be less than the useful
     life of the vehicle to which it is attached, while a costly new facility funded by ARRA might
     merit a more durable permanent sign.
•    If a construction project involves roadways, grantees should use the guidance for road signs
     disseminated by the FHWA division offices.
•    Safety concerns should be taken into consideration in the placement of signs, so as not to
     obscure traffic control signs, for example, or create a hazard.
•    Grantees may use the Recovery.gov and TIGER logos on paper documents and websites
     related to ARRA funded projects, for example bid documents and website postings of contract
     awards.
• The cost of producing and displaying the logos is an eligible project administration cost in FTA
     ARRA grants.
Maritime Administration
MARAD provided design and placement guidance for signs to identify where ARRA funding is
being used and included Recovery.gov and DOT recovery logos.

Sign design:



CC-20 10-065
                                                                                                  7


•   should include the Recovery.gov logo and the DOT recovery logo,
•   should include a brief description of how the money is being spent, and
•   should be of adequate size for easy recognition and viewing.

Sign placement:
•   should be placed where they can be easily identified with the corresponding projects;
•   in cases where specific projects are not easily identified, signs should be posted at the major
    entrances to the facility; and
•   signs should remain in place for the duration of the project or one year, whichever is longer.



We would be happy to meet with you or your staff at your convenience to discuss
this letter. If you have any questions, please call me at (202) 366-1959, or Nathan
Richmond, Director and Counsel for Congressional and External Affairs,
at (202) 493-0422.

Sincerely,


0cJv//Io-L. fJ&v.(bt                             :
Calvin L. Scovel III
Inspector General

cc: The Honorable Edolphus Town, Chairman




CC-2010-065
